table of contents
Return
to the USDOJ/OIG Home Page
Inspection of the Secure Electronic Network for Travelers' Rapid Inspection
Report Number I-2000-019
June 2000
TABLE OF CONTENTS
EXECUTIVE DIGEST
INTRODUCTION
BACKGROUND
RESULTS OF THE INSPECTION
IMPACT ON COMMUTER WAIT TIMES
Wait Times in the SENTRI Lane
Wait Times in the General Inspection Lanes
IMPACT ON BORDER INTEGRITY
Maintaining Border Integrity
Enrollment Data
Administrative Procedures
Impact on General Inspection Lanes
San Ysidro
PROJECT FUNDING
Recovering Full Operating Costs
Commuter Resistance to User Fee
Funding Shortfalls
PROJECT EVALUATION AND PLANNING
Resolution of Critical Issues
Evaluating Overall Operations
Assessing Proposed Pilot Sites
Enrollment Projections
CONCLUSIONS AND RECOMMENDATIONS
APPENDIX I: SCOPE AND METHODOLOGY
APPENDIX II: MAJOR PROGRAM MILESTONES
APPENDIX III: SENTRI'S PERFORMANCE MEASUREMENT PLAN
APPENDIX IV: PRIMARY AND SECONDARY INSPECTION PROCESSES IN THE SENTRI                    AND GENERAL INSPECTION LANES
APPENDIX V: SENTRI'S ENROLLMENT PROCESS
APPENDIX VI: ASSESSING RISK LEVELS AT EXISTING AND PROPOSED SENTRI SITES:                    ONE OPTION FOR INS TO CONSIDER
APPENDIX VII: REASONS FOR DENYING APPLICANTS AT OTAY MESA
APPENDIX VIII: CRIMINAL RECORDS OF DENIED APPLICANTS
AT THE PEACE BRIDGE
APPENDIX IX: ENROLLEES AND DENIED APPLICANTS BY
COUNTRY OF CITIZENSHIP AT OTAY MESA
APPENDIX X: ENROLLEES AND DENIED APPLICANTS BY
COUNTRY OF CITIZENSHIP                   AT THE PEACE BRIDGE
APPENDIX XI: SENTRI AND SECTION 110 OF THE ILLEGAL
IMMIGRATION REFORM                    AND IMMIGRANT RESPONSIBILITY ACT
APPENDIX XII: INS RESPONSE TO DRAFT REPORT
APPENDIX XIII: OFFICE OF THE INSPECTOR GENERAL'S ANALYSIS OF MANAGEMENT'S RESPONSE
APPENDIX XIV: JPR RESPONSE TO DRAFT REPORT
APPENDIX XV: OFFICE OF THE INSPECTOR GENERAL'S ANALYSIS OF MANAGEMENT'S RESPONSE